No. 20-7258

Xn the Supreme Court of the Gnited States

TOI HORN,
Petitioner,

Vv.

FEDERAL NATIONAL MORTGAGE ASSOCIATION
(“FANNIE MAE’),

Respondent.

On Petition for a Writ of Certiorari to the United States Court of
Appeals for the Fourth Circuit

PROOOF OF SERVICE

I, Regina M. Slowey, hereby certify that I] am a member of the Bar of this
Court and that a true and correct copy of Respondent's Opposition Brief to Petition
for a Writ of Certiorari was served by first-class, postage prepaid United States mail
on March 26, 2021, to all parties required to be served as follows:

Toi J. Horn
10312 Garson Terrace
Lanham, Maryland 20706

Date: March 26, 2021

   

Orlans PC
P.O. Box 5041
Troy, MI 48007

(248) 502-1400
rslowey@orlans.com
Counsel for Respondent
